No:
IN THE
SUPREME COURT OF THE UNITED STATES
CHRISTINA PAYLAN, M.D.,
Petitioner
V.

COMANECI DEVAGE et al.
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Eleventh Circuit

Certificate of Service

I certify that on July 16, 2021, in accordance with SUP. CT. R. 29, copies of
the (1) Petition for Writ of Certiorari, (2) Certificate of Service, and (3) Proof of
Compliance were served by mail within three days upon all Counsel for
Respondents as follows:
1. Ursula D. Richardson, Esq., Counsel for Mayor and City of Tampa
Senior Assistant City Attorney
City Attorney’s Office
315 E. Kennedy Boulevard, 5th Floor
Tampa, Florida 33602

2. Christopher Brown, Esq., Counsel for Hillsborough County Sheriffs Office
Respondents
2008 E 8th Ave
PO Box 3371
Tampa, FL 33605
3. Craig Berman, Esq., Counsel for Family Respondents
Berman Law Firm, PA
Plaza Tower - Suite 706
111 2nd Ave NE
St Petersburg, FL 33701
4. Eugenia Izmaylova, Esq. Asst Attorney General for Respondent Prosecutors
Office of the Attorney General
Suite 1100
501 E Kennedy Blvd
Tampa, FL 33602
5. Andrew Dayes, Esq. Counsel for Respondents Tampa Police Officers
Dayes Law Firm
2426 Bond Avenue
Clearwater, Florida 33759
6. Jeff Morelock, Pro Se Respondent
8374 17 Way N
St Petersburg, FL 33702

CHRISTINA PAYLAN, M.D.
P.O. BOX 66442
St. Pete Beach, Florida 33736
Tel: (813) 919-6299
Email: drpaylan@bodytuck.com

